No. 20-587
IN THE SUPREME COURT OF THE UNITED STATES
_________________
HOPE ANGELIC WHITE, INDIVIDUALLY AND AS
PERSONAL REPRESENTATIVE OF THE ESTATE OF
MYRON POLLARD, PETITIONER
v.
UNITED STATES OF AMERICA, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENTS IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 5th day of February 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 6,439 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
February 5, 2021

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
February 5, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-0587
WHITE, HOPE A.
USA, ET AL.

HOWARD ARLAN SHALOWITZ
LAW OFFICES OF HOWARD A. SHALOWITZ
P.O. BOX 410404
ST. LOUIS, MO 63124
314-277-9977
HAZZANHOWIE1@YAHOO.COM

